   April 24, 2006




Information Technology
Management
Review of the Information Security
Operational Controls of the Defense
Logistics Agency’s Business Systems
Modernization-Energy
(D-2006-079)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

ATO                   Authority To Operate
BSM-E                 Business Systems Modernization-Energy
C&A                   Certification and Accreditation
CIO                   Chief Information Officer
COOP                  Continuity Of Operations Plan
DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
DAA                   Designated Approving Authority
EDC                   Enterprise Data Center
FISMA                 Federal Information Security Management Act
FAS                   Fuels Automated System
FES                   Fuels Enterprise Server
IA                    Information Assurance
IT                    Information Technology
IATO                  Interim Authority To Operate
MOU/A                 Memorandum Of Understanding/Agreement
MAC                   Mission Assurance Category
NIST                  National Institute of Standards and Technology
OMB                   Office of Management and Budget
POA&M                 Plan Of Action and Milestones
SSAA                  System Security Authorization Agreement
               Department of Defense Office of Inspector General
Report No. D-2006-079                                                     April 24, 2006
  (Project No. D2005-D000AL-0158.000)

       Review of the Information Security Operational Controls of
            the Defense Logistics Agency's Business Systems
                         Modernization-Energy

                                Executive Summary

Who Should Read This Report and Why? The DoD Chief Information Officer;
Director, Defense Logistics Agency; Defense Logistics Agency Chief Information
Officer; and Chief Information Officers of the Air Force, Army, and Naval branches of
the military should read this report to obtain information about Business Systems
Modernization-Energy (Fuels Automated System). This report discusses how Business
Systems Modernization-Energy (Fuels Automated System) is managed and controlled by
the Defense Logistics Agency and how it is used at the base level by the Military
Services.

Background. This report was prepared in response to the annual reporting requirements
of the Federal Information Security Management Act of 2002. The Federal Information
Security Management Act of 2002 is title III, section 301 of the E-Government Act of
2002 (Public Law 107-347). The Federal Information Security Management Act
provides a comprehensive framework for ensuring the effectiveness of information
security controls, management, and oversight required to protect Federal information and
information systems. In addition, the Federal Information Security Management Act
requires the Inspectors General of each agency to perform an independent evaluation of
the agency’s information security programs and practices.

The Defense Logistics Agency supplies the nation’s Military Services and several
civilian agencies with the critical resources they need to accomplish their worldwide
missions. The Defense Energy Support Center is the component of DLA assigned
responsibility for providing the DoD and other government agencies with comprehensive
energy solutions. The Business Systems Modernization-Energy (Fuels Automated
System) supports the Defense Energy Support Center and the Military Services in
performing their responsibilities in fuel management and distribution. The information
security operational controls related to the Business Systems Modernization-Energy
(Fuels Automated System) should operate effectively and provide an appropriate level of
information assurance.

Results. The DLA Chief Information Officer has not fully implemented information
security operational controls at the Defense Logistics Agency. Specifically, the Defense
Logistics Agency Chief Information Officer did not:

       •      ensure that Business Systems Modernization-Energy (Fuels Automated
              System) was fully certified and accredited;
       •       address all system security weaknesses in the plans of action and
               milestones;

       •       ensure that adequate user access controls were in place;

       •       consistently provide users with annual security awareness training; and

       •       complete and test system-wide continuity of operations plans.

In addition, weaknesses were found in the Defense Logistics Agency Management
Control Program for the Business Systems Modernization-Energy (Fuels Automated
System) certification and accreditation, user access controls, training requirements, and
continuity of operations plan. As a result, the Business Systems Modernization-Energy
(Fuels Automated System) operated with vulnerabilities that present potential risks to the
Defense Logistics Agency and the DoD. See the Finding section of the report for the
detailed recommendations.

Management Comments and Audit Response. The Defense Logistics Agency Chief
Information Officer/Designated Approving Authority nonconcurred with twelve of the
recommendations and concurred with comments on four recommendations. The
comments stated that the Business Systems Modernization-Energy (Fuels Automated
System) Base Level Support Application Type Accreditation was developed in
accordance with DoD 8510.1-Manual, “DoD IT and Security Certification and
Accreditation Process Application Manual,” July 31, 2000, which designates Base Level
personnel as the responsible source for complying with information assurance
responsibilities. The comments repeatedly stated that the Defense Logistics Agency is
not responsible for Base Level compliance with information assurance guidance. The
comments also state that the established Defense Logistics Agency One Book chapters
fully address the policies required to implement and sustain an effective information
assurance program. Additionally, the comments state that updates to the Business
Systems Modernization-Energy (Fuels Automated System) will occur once the system
migrates to the Enterprise Data Center. Furthermore, the comments state that the
provisions within the Business Systems Modernization-Energy (Fuels Automated
System) Base Level Support Application System Security Authorization Agreement are
binding to all organizations where the application is installed and operated.

The Defense Logistics Agency Chief Information Officer/Designated Approving
Authority comments were nonresponsive to fourteen recommendations and partially
responsive to two recommendations. The Defense Logistics Agency comments
contained inaccurate dates and incorrect citations of DoD policy. The Defense Logistics
Agency is required to develop a plan of action and milestones for all programs and
systems where an information security weakness has been identified. The Business
Systems Modernization-Energy (Fuels Automated System) Base Level Support
Application System Security Authorization Agreement should have included a statement
that defines the intended operating environment as well as any operating procedures
required for the type accredited system. In addition, the program manager, user
representative, and information system security officer should have ensured that proper
security operating procedures, configuration guidance, and training was delivered with
the system. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.



                                            ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 3

Finding
     Implementation of Security Operational Controls for the BSM-E (FAS)
        System                                                             4

Appendixes
     A.   Scope and Methodology                                            24
     B.   Prior Coverage                                                   25
     C.   Criteria                                                         26
     D.   Report Distribution                                              30

Management Comments
     Defense Logistics Agency                                              33
Background
           Defense Logistics Agency. The Defense Logistics Agency (DLA) supplies the
           nation’s military services and several civilian agencies with the critical resources
           they need to accomplish their worldwide missions. DLA provides wide-ranging
           logistics support for peacetime and wartime operations, as well as emergency
           preparedness and humanitarian missions. The Defense Energy Support Center
           (DESC) is the component of DLA assigned responsibility for providing the DoD
           and other government agencies with comprehensive energy solutions in the most
           effective and economical manner possible. The basic mission of DESC is to
           support the warfighter and manage the energy sources of the future.

           Business Systems Modernization-Energy (Fuels Automated System)
           Background. The Business Systems Modernization-Energy (BSM-E) (formerly
           the Fuels Automated System (FAS)) is categorized by the DLA as a Mission
           Assurance Category (MAC) II 1 and is responsible for managing all DoD fuels.
           BSM-E (FAS) supports the DESC and the Military Services in performing their
           responsibilities in fuel management and distribution. The BSM-E (FAS) is
           considered a multi-functional automated information system that provides point
           of sale data collection, inventory control, finance and accounting, procurement,
           and facilities management. The BSM-E (FAS) provides an advanced tool for
           DESC’s worldwide energy support mission, with five primary software programs:

               •    Fuels Control Center;

               •    Fuels Enterprise Server (FES);

               •    Energy Downstream;

               •    Oracle Government Financial; and

               •    Management Information.
           The BSM-E (FAS) is comprised of a Base Level system, the FES, and an
           Enterprise Level system. The BSM-E (FAS) Base Level system consists of
           computers loaded with Fuels Control Center software. The Base Level system
           provides the capability to order fuel from existing contracts; document receipt of
           fuel; document issues/sales; compare booking to physical inventory accounting;
           and schedule quality checks and physical plant inspections. The FES is the single
           point of entry for base level transactions. The FES receives, sorts, validates, and
           manages data entered from the Base Level system and sends that data to the
           Enterprise Level system. The Enterprise Level system consists of Energy
           Downstream software, Oracle Government Financial software, Management


1
    Mission Assurance Category II (MAC II) systems handle information that is important to the support of
    deployed and contingency forces. The consequences of loss of availability could include delay or cause
    degradation in providing important support services or commodities that may seriously impact mission
    effectiveness or operational readiness. MAC II systems require additional safeguards beyond best
    practices to ensure assurance.



                                                      1
Information software, and the Constellar Hub (serving as a gateway from FES to
Energy Downstream).

The BSM-E (FAS) is supported at three military locations: the Defense Supply
Center Richmond in Richmond, Virginia; the DLA Headquarters in Fort Belvoir,
Virginia; and the Washington Navy Yard in Washington, D.C. The Defense
Supply Center Richmond houses the primary production equipment, while the
Washington Navy Yard/DLA hosts the alternate, test, development, and control
systems and provides Continuity of Operations capability. The figure below
shows the BSM-E (FAS) data flow process.


                                Fuels Control Center
                                (Base Level System)



                              Fuels Enterprise Server
                                      (FES)



                                     Constellar Hub
                               Energy Downstream
                             (Enterprise Level System)


            Oracle Government                               Management
                 Financial                                   Information
         (Enterprise Level System)                    (Enterprise Level System)

BSM-E (FAS) Data Flow Process

Government Accountability Office Report 06-31. In October 2005, the
Government Accountability Office issued a DLA Information Security Report
stating that DLA had not fully implemented an agency-wide information security
program to protect the information and information systems that support its
operations and assets. Specifically, the Government Accountability Office stated
that DLA did not consistently assess risks for its information systems; sufficiently
train employees who have significant information security responsibilities or
adequately complete training plans; annually test and evaluate the effectiveness of
management and operational security controls; or sufficiently complete plans of
action and milestones for mitigating known information security deficiencies.




                                       2
Objectives
           The overall objective of the audit was to determine whether information security
           operational controls operate effectively and provide an appropriate level of
           information assurance. Specifically, during this audit we assessed the adequacy
           and effectiveness of the security program; the implementation and effectiveness
           of access controls; and the procedures and testing of contingency and continuity
           of operations plans. We also reviewed the Management Control Program as it
           related to the overall objective. See Appendix A for a discussion of audit scope
           and methodology. See Appendix B for prior audit coverage related to the overall
           objective. See Appendix C for information security operational controls criteria.


Management Control Program Review
           DoD Directive 5010.38, “Management Control Program,” August 16, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,” August
           18, 1996, require DoD organizations to implement a comprehensive system of
           management controls that provides reasonable assurance that programs are
           operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. The audit team
           examined the DLA Management Control Program by following the procedures
           the audit team outlined to achieve their objective. The objective was to determine
           whether information security operational controls operate effectively and provide
           an appropriate level of information assurance. The audit team tested the DLA
           Management Control Program by reviewing the certification and accreditation
           (C&A) of the system, the security program, access controls, and contingency and
           continuity of operations plans (COOP). In addition, management’s self-
           evaluation of the applicable management controls was examined.

           Adequacy of Management Controls. The audit team found weaknesses in the
           DLA Management Control Program for the BSM-E (FAS) C&A, user access
           controls, training requirements, and COOP. Specific results are in the Finding
           section of the report. The implementation of the report recommendations will
           correct the identified weaknesses. A copy of the final report will be provided to
           the senior official responsible for management controls at DLA.

           Adequacy of Management’s Self-Evaluation. The audit team found
           weaknesses with the review of the Management Control Program performed by
           DLA. DLA conducted a review of the J6F 2 system of internal accounting and
           administrative control. The DLA review of the integrity of the J6F information
           systems did not recognize the risks that DLA systems face in regards to logon
           identities and passwords, user access, and training requirements when operated at
           non-DLA locations.


2
    J6 is the Information Operations organization of DLA. J6F is the Information Operations Directorate,
    Fort Belvoir site.



                                                      3
           Implementation of Security Operational
           Controls for the BSM-E (FAS) System
           The DLA Chief Information Officer (CIO) has not fully implemented
           information security operational controls at the DLA. Specifically, the
           DLA CIO did not:

               •   ensure that BSM-E (FAS) was fully certified and accredited;

               •   address all system security weaknesses in the plans of action and
                   milestones (POA&Ms);

               •   ensure that adequate user access controls were in place;
               •   consistently provide users with annual security awareness training;
                   and

               •   complete and test system-wide continuity of operations plans.

           This occurred because DLA did not adequately assign Information
           Assurance (IA) responsibilities and have an effective Management
           Control Program for IA. As a result, BSM-E (FAS) operated with
           vulnerabilities that present potential risks to the DLA and the DoD.


Federal Information Security Management Act
    The E-Government Act of 2002 (Public Law 107-347), title III, section 301,
    “Federal Information Security Management Act of 2002,” provides a
    comprehensive framework for ensuring the effectiveness of information security
    controls, management, and oversight required to protect Federal information and
    information systems. The Federal Information Security Management Act
    (FISMA) requires Federal agencies to develop, document, and implement an
    agency-wide information security program and annually report to the Office of
    Management and Budget (OMB) and the Congress the adequacy and
    effectiveness of information security policies, procedures, and practices. FISMA
    requires each agency to perform annual testing and evaluation of the
    management, operational, and technical controls and also states that each
    agency’s security program shall include the provision for the continuity of
    operations for information systems that support the operations and assets of the
    agency. In addition, the FISMA requires the Inspectors General of each agency
    to perform an independent evaluation of the agency’s information security
    programs and practices.

    As mandated by FISMA, Section 20 of the National Institute of Standards and
    Technology (NIST) Act (15 U.S.C. 278g-3), was amended to insert that NIST had
    the mission of developing standards, guidelines, and associated methods and
    techniques for information systems. This includes minimum requirements for
    information systems used or operated by an agency or by a contractor of an


                                         4
           agency or other organization on behalf of an agency, other than national security
           systems. NIST was also assigned responsibility for developing standards and
           guidelines, including minimum requirements, for providing adequate information
           security for all agency operations and assets, but such standards and guidelines
           would not apply to national security systems.


BSM-E (FAS) Security Operational Controls
           The DLA CIO did not fully implement information security operational controls.
           According to the DLA One Book Policy, “IA Operational Controls,” August 19,
           2004, the implementation of IA operational controls is necessary to ensure the
           confidentiality, integrity, and availability of Sensitive but Unclassified and
           classified data processed and stored by information technology (IT) systems in a
           day-to-day operational environment.

           Certification and Accreditation. DLA had not fully certified and accredited the
           BSM-E (FAS) since 2001. In October 2003, the DLA Designated Approving
           Authority (DAA) formally designated the BSM-E (FAS) as a MAC II Sensitive
           System in accordance with DoD Instruction 8500.2. Additionally, the DAA
           required that the BSM-E (FAS) System Security Authorization Agreement
           (SSAA) be updated and completed by December 30, 2003. On July 1, 2004, the
           DAA granted BSM-E (FAS) an Interim Authority to Operate (IATO) for
           180 days to accomplish IA remediation actions identified in the POA&M. DLA
           completed a new BSM-E (FAS) SSAA in October 2004; however, the DAA did
           not issue another IATO until December 30, 2004, because an Authority to
           Operate (ATO) could not be granted based on outstanding POA&M items. The
           Memorandum from the DLA DAA stated that the IATO expired on June 28,
           2005, which should have been sufficient time for J6F to resolve the existing
           vulnerabilities and submit the necessary documentation to support an ATO.

           On May 13, 2005, the DAA for BSM-E (FAS) issued an IATO Extension for
           Applications Migrating to the Enterprise Data Center 3 (EDC). The IATO
           Extension memorandum was created to avoid expiration of the current
           BSM-E (FAS) IATO pending realignment of the system under the EDC SSAA.
           Furthermore, in September 2005, the DAA signed an ATO for the BSM-E (FAS)
           Base Level Support Application. According to NIST Special Publication 800-37,
           security reaccreditation occurs at the discretion of the authorizing official when
           significant changes have taken place in the information system or when a
           specified time period has elapsed in accordance with federal or agency policy.
           Between October 2003 and September 2005, BSM-E (FAS) underwent two major
           system changes; becoming a MAC II Sensitive System and separating the Base
           Level system from the rest of BSM-E (FAS), which required completion of a
           separate C&A for the Base Level system. However, the DAA did not require the
           completion of a full reaccreditation of the system in either of those instances.

3
    The EDC is a consolidation and outsourcing of DLA servers and database operations from the current
    multi-distributed data center approach to a logical Data Center using a geographically dispersed data
    center approach. These data centers are located in commercial facilities and are maintained by the
    contractor.



                                                       5
DLA should ensure that the BSM-E (FAS) system undergoes a full
reaccreditation to include the BSM-E (FAS) Base Level Support Application in
accordance with DoD 8510.1-M, which states as changes to a system occur, they
should be reflected in the SSAA.

Plans of Action and Milestones. The BSM-E (FAS) POA&M did not address
all BSM-E (FAS) security weaknesses and was not being updated on a quarterly
basis. The OMB Memorandum 02-01, “Guidance for Preparing and Submitting
Security POA&M,” October 17, 2001, states that the purpose of a POA&M is to
assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for security weaknesses found in programs and systems.
Additionally, the Memorandum states that agency officials should prepare a
POA&M for every system for which weaknesses were identified in security act
reports, audits, and assessments and should submit brief status updates of their
system POA&Ms to their agency CIO on a quarterly basis.

As a result of a review by the Joint Interoperability Test Command in
September 2003, DLA created the BSM-E (FAS) POA&M that included IA
findings from the review. However, the BSM-E (FAS) POA&M did not address
all IA findings. For example, the Joint Interoperability Test Command Report
stated that the documentation provided in the SSAA did not contain the
comprehensive elements of a system security plan that identifies the technical,
administrative, and procedural IA program. The report specifically stated that
DoD Instruction 8500.2 required the following elements to be documented:

   •   all external interfaces, the information being exchanged, and the
       protection mechanisms associated with the interface;

   •   user roles required for access control and the access privileges assigned to
       each role;

   •   unique security requirements;

   •   categories of sensitive information processed or stored by BSM-E (FAS)
       and their specific protection plans; and

   •   restoration priorities of subsystems, processes, or information.

As of June 2005, the BSM-E (FAS) POA&M did not include the task of updating
the SSAA to reflect that documentation.

Additionally, the BSM-E (FAS) POA&M had not been updated since June 2005.
According to DLA IA personnel, the POA&M will not be updated until the
migration of BSM-E (FAS) to EDC, tentatively scheduled for January 2006.
However, since the last POA&M update in June 2005, BSM-E (FAS) underwent
a major architectural change when the Base Level system received its own
separate accreditation in September 2005. Therefore, DLA should update the
BSM-E (FAS) POA&M and remove weaknesses that pertained to the Base Level
system.




                                      6
User Access Controls. BSM-E (FAS) user access controls needed improvement
at DLA and the Base Level user sites. Specifically, DLA did not require all
BSM-E (FAS) users to implement necessary access controls and was unaware of
who accessed BSM-E (FAS) at BSM-E (FAS) user sites. For example, DLA did
not have procedures for granting and removing access to Base Level and FES
users, completing user agreement forms at the Base Level, locking inactive
computers, disabling inactive accounts, and accessing system software.

        Base Level Users. The BSM-E (FAS) Base Level sites did not have user
access and removal procedures. The three military sites visited did not have
policies that outlined a process for granting access to new local area network
users and therefore, access to BSM-E (FAS). Although two of the three military
sites had policies that required new local area network users to complete an initial
computer test before being granted access to the local area network, there was no
consistency in how the three military sites granted access to new local area
network users. Also, none of the three military sites had policies that outlined the
requirements and duties for personnel that granted new BSM-E (FAS) users
account access.

In addition, two of the three military sites visited did not have policies in place to
remove Base Level system users from the network when access was no longer
required. The third military site issued general guidance but did not identify
specific duties. Each military site had an informal method for removing users, but
had not established specific policies that outlined the removal process. As of
January 2006, DLA did not know who had access to BSM-E (FAS) at the Base
Level.

        FES Users at Military Sites. DLA did not have procedures for removing
individuals who no longer required access to FES at the Base Level. For
example, for the three military sites visited, DLA headquarters had a list of all
FES users at those sites; however, not all of the listed individuals who had FES
access required FES access. Of the fifteen FES users listed at one site, three FES
users no longer required FES access and three other FES users could not be found
on the Global Address List. For the twenty FES users listed at the other two sites,
each site had one person who could not be found on the Global Address List. If a
user was not listed in the Global Address List, it meant they no longer had a
network account at that location, and therefore, should no longer require access to
the FES. DESC was developing an interim policy, DESC-T Instruction-24, which
will outline the procedures for DESC user access to and removal from FES.
However, until DESC-T Instruction-24 is approved, DESC does not have a policy
that outlines the process to grant or remove DESC users access to BSM-E (FAS).

        User Agreement Forms. Two of the three military sites and DLA
headquarters require new network users to sign a User Agreement/Rules of
Behavior document. The User Agreement/Rules of Behavior document outlines
the standards of conduct that the user is expected to follow. The other military
site did not implement or use a User Agreement/Rules of Behavior document for
network users acknowledgement and agreement. DoD Instruction 8500.2, “IA
Implementation,” February 6, 2003, requires a set of rules that describes the
responsibilities and expected behavior of all personnel, including the
consequences for non-compliance with the rules. A signed acknowledgement of


                                      7
the rules is a condition of access. Accordingly, DLA needs to direct all BSM-E
(FAS) sites that use BSM-E (FAS) to comply with DoD Instruction 8500.2 and
require users to sign a formal standardized User Agreement/Rules of Behavior
document before gaining access to the system.

        User Lockout. BSM-E (FAS) computers did not have a screen-lock
function that prevented users access to the system after periods of inactivity.
Specifically, network settings on the BSM-E (FAS) computers at the three
military sites did not automatically log users off or lock them out of their
workstation after a period of inactivity. At one military site, a Base Level
computer activated a password protected screen saver after sitting inactive for a
period of time; however, the setting on the computer was manually set. At two
other military sites, Base Level computers did not use a screensaver lockout.
There were no policies in place at any of the three military sites requiring a
network setting for a log off or lock out function. Network technicians at DLA
Headquarters stated that they had implemented a network setting that refreshes
periodically on all user workstations at Headquarters to activate a password
protected screen-saver on the user’s workstation after a period of inactivity.
However, DLA was not able to show the audit team an example of this network
setting. Personnel at DLA advised that the newest version of BSM-E (FAS)
(Fuels Manager Defense 6.0) will have a feature which will automatically log
users out of BSM-E (FAS) after a period of inactivity, even if the user had not
logged off their workstation. DoD Instruction 8500.2 requires the association of a
screen-lock function with each workstation. The screen-lock function, when
activated by either a specific user action or after a specified period of workstation
inactivity (e.g., 15 minutes), places an unclassified pattern on the screen that hides
the previously visible screen. Once the screen-lock function is activated, access
to the workstation requires a unique authenticator. DLA should ensure a screen-
lock function is installed on every workstation that runs BSM-E (FAS), as
required by DoD Instruction 8500.2, because the system does not require an
individual log-in to gain access to the system. Without a screen-lock function,
potentially unauthorized individuals could gain access to BSM-E (FAS) on an
unprotected workstation connected to a network.

Additionally, at two military sites, permission settings for BSM-E (FAS) were not
limited to individuals who required access to BSM-E (FAS). At these two
military sites, permission settings were set to allow everybody on the base with a
network username and password to access BSM-E (FAS). When advised,
personnel from DESC and the site were able to change the permission settings at
one of the two locations. However, the other location still had permission settings
that allowed everyone with a network account to have access to BSM-E (FAS).
DLA should require all BSM-E (FAS) Base Level sites to evaluate their network
permission settings to ensure that only current BSM-E (FAS) users have access to
the system. Unnecessary or unauthorized access could pose undue risks to DoD
systems and information.

        Inactive Accounts. Inactive accounts were not being properly removed
from the network. None of the military sites visited had a policy in place
regarding the removal of inactive accounts. Also, one military site did not scan
their network for inactive accounts. Another military site scanned the network
quarterly and deactivated inactive accounts with the permission of the inactive


                                      8
user’s manager. The third military site scanned the network for accounts that had
been inactive for at least 45 days and either deleted or disabled the account with
the approval of the inactive user’s manager. Any inactive account was deleted
after 90 days of inactivity; however, none of these functions were documented in
formal policy. DLA should require BSM-E (FAS) Base Level sites to disable or
remove inactive accounts so there is no way for users to gain unauthorized access.

DLA is in the process of implementing a new process for handling inactive
accounts on the DLA network. DLA plans to conduct monthly network scans to
detect accounts that have been inactive for 90 days, which will then be
deactivated. After 6 months of inactivity, the user’s account will be archived and
no longer accessible. Prior to this change, DLA only performed networks scans
every 6 months. Although DLA’s new process increases the number of scans for
inactive accounts, the procedures do not meet One Book requirements. The DLA
One Book, “Information Assurance Operational Controls,” August 19, 2004,
states that user accounts which exceed 30 days of inactivity will be disabled.
DLA should ensure that inactive accounts are being disabled in accordance with
the One Book policy.

        Access to System Software. Critical software for BSM-E (FAS) must be
kept safeguarded. The BSM-E (FAS) software has been well protected at DLA
headquarters. While two of the three military sites visited stored the BSM-E
(FAS) software disk in a locked location, the third military site stored the system
software disk next to the computer in an unlocked container. Additionally, none
of the three military sites stored the critical software in a fireproof container or at
a separate location, as outlined in DoD Instruction 8500.2. DLA should ensure
the BSM-E (FAS) software is stored at a separate location and in an appropriate
container.

Annual Security Awareness Training. The BSM-E (FAS) users were not
consistently provided annual security awareness training or required privileged
user training. As required by DoD Directive 8570.1, “Information Assurance,
Training, Certification, and Workforce Management,” August 15, 2004, all users
of DoD information systems shall receive initial IA awareness and annual IA
refresher awareness training. Additionally, all privileged users shall be fully
qualified, trained, and certified to DoD baseline requirements to perform their IA
duties. The FISMA also requires all DoD Components to report training
information annually to the OMB and Congress.

Required annual IA security awareness training was not being enforced. Based
on a judgmental sample of users at each location visited, only one of the four
sites, including DLA Headquarters, had updated their annual IA security
awareness training for FY 2005. All three Base Level users at one military site
completed their IA security awareness training. At the second military site, 23 of
36 Base Level users completed their required annual IA security awareness
training. At the third military site, none of the three Base Level users completed
their required annual IA security awareness training. Based on a judgmental
sample of 20 of the 170 FES users at DLA headquarters, only 1 of the 20 people
sampled completed their FY 2005 IA security awareness training as of
October 13, 2005.



                                       9
           DLA did not track users with significant security responsibilities at the Base
           Level or whether those users had been properly trained. At each of the three
           military sites visited, there was one individual with significant security
           responsibilities who could make network and BSM-E (FAS) system changes.
           One of the three military sites had a checklist of training requirements for the
           position. Another of the three military sites had a one course minimum
           completion requirement for the individual to achieve their position. The third
           military site had no training requirements outlined for the individual with
           significant security responsibilities. DLA currently does not have a training plan
           in place that requires training for individuals with significant security
           responsibilities. However, DLA personnel reported that there is a Statement of
           Work in place with a contractor to develop an IT and IA Professional
           Development Plan which will outline required training, tasks, and skills for each
           job function at DLA.

           Continuity of Operations Plans. DLA had not updated or tested the
           BSM-E (FAS) COOP since October 2004. According to DLA personnel, there
           are no plans to update or test the BSM-E (FAS) COOP until the system migrates
           to the EDC. DLA considers the migration of BSM-E (FAS) to EDC the next
           COOP test. However, since the last BSM-E (FAS) COOP test date occurred in
           October 2004 and the movement of BSM-E (FAS) to the EDC had a variable date
           of January 2006, DLA did not comply with the annual COOP test policy, as
           specified in the DLA One Book chapter, “IT COOP Planning,” dated January 28,
           2003. In addition, DLA did not know whether there was proper creation and
           storing of backup data or whether recovery procedures existed at the Base Level.

                  Update to COOP. DLA had not recently updated the BSM-E (FAS)
           COOP. The most recent version of the system COOP was dated October 2004,
           while the overall SSAA was last updated on April 27, 2005. As a result, there
           were discrepancies between the BSM-E (FAS) COOP and the SSAA. The
           Management Information software, one of the five primary software programs
           that make up the system, was not included in the COOP documentation.
           Additionally, the COOP contained an inaccurate Alternate Site point of contact
           list. DLA should review and update the BSM-E (FAS) COOP to correct its
           inconsistencies with the BSM-E (FAS) SSAA.

                    Testing of COOP. DLA had not recently tested the BSM-E (FAS)
           COOP. DLA had performed extensive two day COOP tests each year; however,
           the last test occurred in October 2004. DLA had developed an efficient and
           effective mirrored COOP site 4 for BSM-E (FAS). However, because DLA
           delayed the migration date of BSM-E (FAS) to the EDC numerous times, DLA
           did not know when the next COOP test of BMS-E (FAS) would take place;
           therefore, DLA was not compliant with their own COOP testing policy, which
           requires all IT COOP Plan processes to be tested annually. In addition, since the
           Base Level portion of BSM-E (FAS) did not have its own COOP, a Memorandum


4
    NIST Special Publication 800-34 states that mirrored sites are fully redundant facilities with full, real-
    time information mirroring, and are identical to the primary site in all technical respects. These sites
    provide the highest degree of availability because the data is processed and stored at the primary and
    alternate site simultaneously.



                                                        10
           of Understanding/Agreement (MOU/A) should be in place between DLA and the
           Services stating that COOP testing of the system was the responsibility of DLA.

                   Backup and Recovery Procedures. DLA did not know if there was
           proper creation and storage of backup data for the Base Level system. At one of
           the three sites visited, the daily, weekly, and monthly backups of the fuels data
           were located in a small diskette box next to the main Base Level system computer
           terminal. According to the DESC Interim Procedures for Retention and Backup
           of Base Level Fuels Data, dated September 12, 2005, copies of the current daily
           and weekly Base Level system fuels data backup CDs/tapes should be stored in a
           suitable container at a location geographically separated from the Base Level
           system computer terminal. As of April 2006, there is no requirement for the
           Military Sites operating the Base Level system to adhere to DLA guidance, and
           therefore, the DESC Procedures are only used as a best practice at the Base Level.
           The DLA One Book Chapter, “IA Operational Controls, dated August 19, 2004,
           states that audit records for MAC II IT systems should be backed up daily. The
           One Book Chapter, “IT COOP Planning,” also maintains that DLA should
           regularly perform data backups to avoid data loss and store current and archived
           backup data offsite.

           Additionally, DLA did not efficiently provide updates of the DESC Interim
           Procedures for Retention and Backup of Base Level Fuels Data to the Base Level
           fuels personnel. One of the three sites visited used a version of the DESC
           Procedures that was over one year old. Updated versions of these procedures
           were placed on the DESC website; however, the Base Level users were not
           notified when those updates occurred. NIST Special Publication 800-18 states
           that backup procedures should be followed to ensure an application continues to
           be processed if the IT system becomes unavailable; backups should discuss
           frequency and scope of backing up data. DLA should notify the Base Level users
           when updates to the DESC Procedures occur to ensure the proper backup
           guidelines are being followed.

           BSM-E (FAS) recovery procedures did not exist at the Base Level. None of the
           three sites visited had a formal contingency/recovery plan for BSM-E (FAS).
           Two of the sites did not have an established alternate processing facility for the
           Base Level system. DLA representatives explained that sites using BSM-E (FAS)
           are not required to develop a separate contingency/recovery plan for the Base
           Level system, even though one site did take responsibility to further secure the
           application. DLA and Base Level fuels personnel stated that the Base Level users
           will call the DESC Help Desk 5 with any questions or concerns about the Base
           Level system, even though there is no formal documentation telling them to do so.
           For example, the Base Level fuels personnel at one of the three sites visited
           encountered computer problems, which consisted of the two Base Level system
           computers randomly restarting. According to the Base Level fuels personnel, this
           was a reoccurring problem; however, no previous effort had been made to contact
           the DESC Help Desk to correct the problem. DLA should develop a MOU/A
           between DLA and the Services to ensure that Base Level system procedures for
           the Base Level system users are followed. Without an MOU/A between DLA and

5
    The DESC Help Desk is the primary source for reporting problems and obtaining assistance for problems
    related to DESC applications.



                                                    11
    the Services, it is unclear who is responsible for recovery procedures at the Base
    Level.


Oversight of Information Assurance
    The DLA One Book serves as the single authorized repository for Agency
    policies, processes, and procedures, and provides a mechanism for knowledge
    sharing within the Agency. Additionally, DLA determined that the One Book
    should be a major initiative in the internal process arena. By documenting its
    processes in the One Book, DLA wanted to achieve process management,
    improvement, and excellence. According to DLA, process documentation should
    be the foundation for having repeatable processes, for managing processes, and
    for having a baseline to improve upon.

    IA Roles and Responsibilities. The DLA had not adequately defined processes
    and procedures in the One Book for ensuring that IA responsibilities were
    fulfilled. According to the DLA One Book Chapter, “Information Assurance (IA)
    Management Controls,” dated August 2, 2004, the Chief of IA will develop DLA
    IA policies and guidelines and ensure Agency compliance. However, there has
    been no additional guidance issued by the Chief of IA with regards to information
    assurance responsibilities. In addition, the One Book policy needs updating to
    reflect the current organizational structure that the Chief of IA oversees.

             Management Control Program. The DLA One Book assigns
    responsibilities to the DAA, the Chief of IA, the Program Manager or System
    Manager, the IA Manager, and the IA Officer. However, DLA has not instituted
    an effective Management Control Program to ensure personnel in each of those
    positions are completing their assigned responsibilities. Specifically regarding
    BSM-E (FAS), IA roles and responsibilities for the C&A of BSM-E (FAS) have
    not been clearly defined within the SSAA. Each BSM-E (FAS) Base Level
    operating location handles the BSM-E (FAS) user access controls differently.
    The current management of workstation settings, the removal of users and
    inactive accounts, access to software, and the training and documentation of
    qualified users puts BSM-E (FAS) information at risk of being accessed by non-
    authorized personnel. Additionally, there are no clearly defined roles at the Base
    Level for the continuity of system operations should the system fail. The DoD
    Instruction 8500.2 requires that information ownership responsibilities are
    established and that persons in those positions are held accountable for their
    assigned responsibilities. The DLA should create a control objective that ensures
    all parties responsible for the certification and accreditation of a system are
    completing the appropriate tasks efficiently and effectively.

    The DLA’s current assessment of its management controls includes an evaluation
    of the integrity of its automated information systems. According to DLA, users
    must have a logon identity and password for access to an information system.
    Currently, when accessing BSM-E (FAS) at the Base Level, a logon identity and
    password is not needed once a user is logged on to the site’s local area network.
    With the full implementation of Fuels Manager Defense 6.0, all BSM-E (FAS)



                                        12
users will be required to log into the Base Level portion of the system using an
additional assigned logon identity and password.

DLA headquarters does not track who has access to BSM-E (FAS) at non-DLA
locations. The J6F grants access to all FES users at DLA headquarters; however,
once the FES users have access, DLA no longer consistently monitors the users.
In addition, DESC does not monitor who has access to BSM-E (FAS) at the Base
Level. Therefore, it is inaccurate for the J6F to report that the combination of a
DESC login ID and secure passwords will prevent all unauthorized users from
accessing the system. DLA does not know if users are denied system access
when they no longer require access to BSM-E (FAS). As a result, the DLA
valuation of the integrity of its Automated Information Systems is inadequate.

The J6F Management Control Program assessment reports that DLA performs
biannual training of assigned functional area security personnel. However, DLA
currently does not have a personnel training policy in place and is developing an
IT and IA Professional Development Plan, which will outline training, skills, and
tasks for all job functions at DLA.

        Memorandum of Understanding/Agreements. The OMB
Circular A-130, Appendix III requires that a system that interconnects with
another system and shares information must have a system security plan that
establishes controls consistent with the rules of the system and that are in
accordance with guidance from NIST. Additionally, Appendix III requires
agencies to obtain written management authorization before connecting their IT
systems to other systems, based on an acceptable level of risk. NIST Special
Publication 800-47, “Security Guide for Interconnecting IT Systems,” dated
August 2002, states that a system interconnection is defined as the direct
connection of two or more IT systems for the purpose of sharing data and other
information resources. According to NIST Special Publication 800-47, an
organization that owns and operates a connected IT system should develop an
Interconnection Security Agreement to document the technical requirements of
the interconnection. A MOU/A should also be created that defines the
responsibilities of the participating organizations.

DLA does not have an Interconnection Security Agreement or an MOU/A with
the Services that allows the BSM-E (FAS) Base Level system to reside and
operate on their local area networks; however, BSM-E (FAS) personnel have
entrusted Service personnel to ensure operational controls are in place for BSM-E
(FAS) at the Base Level. The DLA One Book does not address the completion of
an Interconnection Security Agreement or an MOU/A in any of its policies on IA.
In addition, the management control assessment of the integrity of information
systems does not include a determination as to whether appropriate MOU/As are
in place with Military Components that are operating DESC systems on their
local area networks, as is the case with BSM-E (FAS).




                                    13
Conclusion
    BSM-E (FAS) is operating with vulnerabilities that present potential risks to the
    DLA and the DoD. Because BSM-E (FAS) is operating at non-DLA sites, the
    Agency should have an MOU/A with all the sites operating their system. The
    MOU/A should clearly delineate security safeguard responsibilities including the
    C&A of the Base Level sites and the local area networks that BSM-E (FAS) is
    operating on. Without a clearly defined agreement between the two organizations
    that own and operate the interconnected BSM-E (FAS) and the local area
    network, it is unclear what party should be establishing, operating, and securing
    the interconnection.

    Additionally, the information being reported between DLA and the military
    services cannot be considered completely reliable while there is a risk of
    unauthorized access. Until DLA develops MOU/As that specifically outline the
    IA roles and responsibilities of DLA and the military services, BSM-E (FAS)
    information will be at risk and will not be secured to the fullest extent possible.

    If BSM-E (FAS) users are not consistently provided annual security awareness
    training or required privileged user training, those individuals could either
    knowingly or inadvertently introduce security vulnerabilities into DoD networks.
    If personnel are not adequately informed of applicable organizational policy and
    procedures, they cannot be expected to effectively secure computer resources. In
    addition, if DLA does not have an accurate method to track who has received
    annual security awareness training, the agency is unable to know which
    employees could pose a serious threat to the security of their computer resources.

    Without annual COOP testing, DLA cannot provide adequate assurance that the
    BSM-E (FAS), a MAC II system, will be able to recover from a system failure.
    The consequences of a system failure could delay or result in degradation of
    important support services or commodities that may seriously impact DoD
    mission effectiveness or operational readiness. Furthermore, without an MOU/A,
    there are no clearly defined responsibilities at the BSM-E (FAS) Base Level
    regarding the backup and recovery of the system, should a failure occur.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Logistics Agency:

           a. Require the Defense Logistics Agency Chief Information
    Officer/Designated Approving Authority to:

                 (1) Ensure the Business Systems Modernization-Energy (Fuels
    Automated System) completes a full certification and accreditation to include
    the Base Level Support Application;




                                         14
Management Comments. The DLA CIO nonconcurred and stated that the DLA
CIO/DAA has already accredited the BSM-E (FAS). The original BSM-E (FAS)
ATO was issued on December 30, 2004, with an expiration date of June 28, 2007.
The BSM-E (FAS) Base Level Support Application received a separate ATO on
September 21, 2005, to support a Type Accreditation that expires on
September 12, 2008.

Audit Response. The DLA CIO comments were nonresponsive. On
December 30, 2004, the BSM-E (FAS) received an IATO, which expired on
June 28, 2005. The initially requested ATO could not be granted based on
outstanding IA items within the POA&M. Therefore, the BSM-E (FAS) has not
been fully certified and accredited since 2001. In addition, on May 13, 2005, the
DLA CIO/DAA issued an “Interim Approval to Operate Extensions for
Applications Migrating to the Enterprise Data Center” pending the realignment of
BSM-E (FAS) under the EDC. However, DLA has not determined when the
migration to the EDC will occur. We request that DLA provide additional
comments on the report.

              (2) Develop information assurance policies and guidelines as
required by the Defense Logistics Agency One Book; and

Management Comments. The DLA CIO nonconcurred and stated that the DLA
CIO/DAA has published five One Book chapters to facilitate DLA’s
implementation of DoD IA requirements. The requirements included within these
One Book chapters fully address the policies required to implement and sustain an
effective IA Program.

Audit Response. The DLA CIO comments were nonresponsive. The DLA One
Book chapter, “Information Assurance Management Controls,” established the IA
policy, requirements, and processes to implement, manage, and sustain an
effective DLA IA program. The measurable output of this process is the
implementation of a DLA IA program to ensure the confidentiality, integrity,
availability, and non-repudiation of Sensitive But Unclassified and classified data
processed and stored by IT systems. However, DLA has not effectively ensured
the confidentiality, integrity, and availability of the information contained in
systems that have received a type accreditation such as the BSM-E (FAS). (See
Audit Response to Recommendation 1.a.3. below.) In addition, two of the five
DLA One Book chapters referred to by DLA discuss the Chief of IA as part of the
J-633 organization, which no longer exists in DLA. We request that DLA provide
additional comments on the implementation and management of their IA
program.

             (3) Create a management control program that ensures
compliance with all DoD and agency information assurance policies and
guidelines.

Management Comments. The DLA CIO nonconcurred and stated that DLA has
an effective IA management control program in place to ensure compliance with
IA policies and guidelines. The IA Management Control One Book Chapter
establishes responsibility for ensuring IA requirements are enforced by
appropriate levels throughout the DLA organization. Also, IA Performance


                                    15
Reviews are performed on a continuous basis to provide an independent
assessment of the IA program implementation across the Agency. In addition,
DLA commented that the Agency is not responsible for ensuring that Military
Service personnel comply with DoD IA requirements. The BSM-E (FAS) Base
Level Support Application Type Accreditation delineates Military Service
personnel IA responsibilities and DLA does not have enforcement authority or
responsibility for ensuring their compliance.

Audit Response. The DLA CIO comments were nonresponsive. DLA did not
provide evidence that they conducted and completed IA Performance Reviews
that provided an independent assessment of the IA program implementation
across the Agency. Additionally, according to DoD 8510.1-M, an SSAA should
be prepared for the system software and hardware considered under a type
accreditation. The SSAA should be shipped to each prospective installation site
with the software and hardware, where the site manager will receive confirmation
and documentation of the C&A results and the equipment included in the SSAA.
After installation of the information system, the type SSAA should be included in
the network or site SSAA. However, DLA was unaware that the BSM-E (FAS)
SSAA was not included in Base Level network SSAAs. Further, DoD 8510.1-M
states that the information system facility and equipment must be under the
control of the DAA. Any facility or equipment that is not considered or is not
under the control of the DAA should be considered as an external interface. A
description of the system’s external interfaces should include the purpose of each
external interface and the relationship between the interface and the system. The
BSM-E (FAS) SSAA did not identify any external interfaces. We request that
DLA provide the IA Performance Reviews that provide an independent
assessment of the IA Program implementation across the Agency. We also
request that DLA provide additional comments on the report.

       b. Develop a Defense Logistics Agency plan of action and milestones
pertaining to the significant management control weaknesses identified in
1.a. above and continue to report progress on corrective action to the
Assistant Secretary of Defense for Networks and Information Integration on
a quarterly basis, beginning March 2006, until all corrective actions are
completed and verified, as required by the Federal Information Security
Management Act.

Management Comments. The DLA CIO nonconcurred and stated that
additional IA management controls are not required; therefore, there is no need to
establish a POA&M or report on the implementation of controls that are currently
in place.

Audit Response. The DLA CIO comments were nonresponsive. See Audit
Response to Recommendation 1.a. above. According to the OMB Memorandum
05-15, “FY 2005 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” June 13, 2005, program
officials should develop a POA&M for all systems when an IT security weakness
has been identified. The guidance directs CIOs and agency program officials to
develop, implement, and manage an agency-wide POA&M process and
incorporate all known IT security weaknesses associated with information
systems used or operated by the agency. A status update of the system


                                    16
performance metric must be submitted quarterly to OMB. The agency CIO
centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
basis. In addition, OMB Memorandum 05-15 states that all agencies must
implement the requirements of FISMA and report annually to OMB and Congress
on the effectiveness of their security programs. We request that DLA provide
additional comments on the report.

2. We recommend the Defense Logistics Agency Chief Information
Officer/Designated Approving Authority:

       a. Require the Information Operations Directorate, Fort Belvoir site,
no later than May 2006, to:

             (1) Update the Business Systems Modernization-Energy (Fuels
Automated System) plan of action and milestones to include all security
weaknesses based on the current system configuration;

Management Comments. The DLA CIO concurred and stated that corrective
actions for the BSM-E (FAS) Base Level Support Application security
vulnerabilities have been completed as part of Version 2.0 and are currently
undergoing testing. An ATO to support Type Accreditation of Version 2.0 will
be granted upon successful completion of this testing.

Audit Response. Although DLA concurred, we consider the DLA CIO
comments nonresponsive because DLA referenced an outdated POA&M and did
not discuss the most current version of the POA&M, dated June 2005, which was
provided to the audit team during the audit. We request that DLA provide an
updated POA&M that specifically details the corrective actions that have
occurred on the ten deficiencies identified in the June 2005 POA&M. In addition,
the updated POA&M should include all other outstanding deficiencies, corrective
actions planned, and the expected date of the corrective actions.

             (2) Create formal procedures for granting of access and
removal of Business Systems Modernization-Energy (Fuels Automated
System) Base Level users and Fuels Enterprise Server users at the Base
Level;

Management Comments. The DLA CIO concurred and stated that the DLA
CIO/DAA will direct J6F to take actions to implement appropriate measures for
granting user access to the FES. However, J6F is not responsible for ensuring
implementation of appropriate measures for granting user access to the BSM-E
(FAS) Base Level Support Application. Under provisions within the Type
Accreditation, this responsibility rests with the respective operational
organizations as stipulated in BSM-E (FAS) Base Level Support Application
SSAA.

Audit Response. Although the DLA CIO concurred with regard to FES users,
we consider the comments regarding Base Level BSM-E (FAS) users
nonresponsive. According to DoD 8510.1-M, the type accreditation SSAA must
clearly define the system operating environment. The BSM-E (FAS) Base Level
Support Application ATO, signed by the DAA, should have included a statement


                                   17
that the system was granted a type accreditation and that the operators assume the
responsibility to monitor the operational environment for compliance with that
environment as described in the accreditation documentation. However, it did
not. Additionally, DoD 8510.1-M requires the program manager, user
representative, and information system security officer to ensure proper security
operating procedures, configuration guidance, and training is delivered with the
system. However, DLA did not develop or provide specific guidance to the Base
Level system personnel regarding the granting of access and removal of BSM-E
(FAS) Base Level users and FES users at the Base Level. We request DLA
provide additional comments on the report.

             (3) Create a formal and standard User Agreement/Rules of
Behavior document before allowing access to Business Systems
Modernization-Energy (Fuels Automated System);

Management Comments. The DLA CIO nonconcurred and stated that the IA
Rules of Behavior Process One Book Chapter includes appropriate agreements for
different levels of DLA system users, who are required to sign the agreement
acknowledging receipt and understanding prior to being granted system access.
The DLA CIO/DAA will continue to emphasize compliance with the One Book
Chapter for all Fuels Enterprise Server users. However, DLA is not responsible
for ensuring that Military Service personnel comply with DLA policy for granting
access to the BSM-E (FAS) Base Level Support Application.

Audit Response. The DLA CIO comments were nonresponsive. There are FES
users at the Base Level; therefore, those FES users must follow the DLA IA Rules
of Behavior Process One Book Chapter. DLA is responsible for ensuring the FES
users at the Base Level comply with the DLA policy for granting access to
BSM-E (FAS). In order for DLA to ensure FES user compliance with the One
Book policies, an MOU/A needs to be created and implemented between DLA
and the Services. OMB Memorandum 05-15 states that for non-national security
programs and systems, agencies must follow NIST standards and guidelines.
According to NIST SP 800-47, federal agencies must establish interconnection
agreements. Also, OMB Circular A-130, Appendix III, requires agencies to
obtain written management authorization before connecting their IT systems to
other systems, based on an acceptable level of risk. The written authorization
should define the rules of behavior and controls that must be maintained for the
system interconnection and it should be included in the organization’s system
security plan. Additionally, NIST SP 800-47 states that an MOU/A defines the
purpose of the interconnection; identifies relevant authorities; specifies the
responsibilities of both organizations; and defines the terms of agreement.
Therefore, DLA must create an MOU/A with the Services operating BSM-E
(FAS) in order to establish responsibility and define the rules of behavior for
BSM-E (FAS) Base Level users. We request that DLA provide additional
comments on the report.

              (4) Update the Business Systems Modernization-Energy (Fuels
Automated System) continuity of operations plan to correct inconsistencies
with the Business Systems Modernization-Energy (Fuels Automated System)
System Security Authorization Agreement; and



                                    18
Management Comments. The DLA CIO concurred and stated that the BSM-E
(FAS) application is currently in the process of transitioning to the DLA EDC.
As a result of this transition, the current BSM-E (FAS) COOP is being updated
for integration into the new DLA EDC computing environment. Finalization of
this COOP update and associated testing are contingent upon completion of the
BSM-E (FAS) application migration activities.

Audit Response. Although the DLA CIO concurred, we consider the comments
partially responsive. DLA does not have a specific date as to when BSM-E (FAS)
will migrate to the EDC; therefore, there is no definitive date for updating the
BSM-E (FAS) COOP, which was last updated in October 2004. The date of the
EDC transition has changed numerous times since October 2005 and DLA is
unable to determine when the migration will occur. We recommend that the
CIO/DAA require the Information Operations Directorate, Fort Belvoir (J6F) to
establish a realistic date for the BSM-E (FAS) migration to the EDC and update
the COOP to be in adherence with the BSM-E (FAS) SSAA. We request that
DLA provide additional comments to this report.

              (5) Perform a complete test of the continuity of operations
plan for Business Systems Modernization-Energy (Fuels Automated System).

Management Comments. The DLA CIO concurred and stated that the BSM-E
(FAS) application is currently in the process of transitioning to the DLA EDC.
As a result of this transition, the current BSM-E (FAS) COOP is being updated
for integration into the new DLA EDC computing environment. Finalization of
this COOP update and associated testing are contingent upon completion of the
BSM-E (FAS) application migration activities.

Audit Response. Although the DLA CIO concurred, we consider the comments
only partially responsive. DLA does not have a specific date as to when BSM-E
(FAS) will migrate to the EDC; therefore, there is no definitive date for testing
the BSM-E (FAS) COOP. The date of the transition to the EDC has changed
numerous times since October 2005 and DLA is unable to determine when the
migration will occur. We recommend that the CIO/DAA require the Information
Operations Directorate, Fort Belvoir (J6F) to establish a realistic date for the
BSM-E (FAS) migration to the EDC and perform a complete test of the COOP.

3. We recommend the Information Operations Directorate, Fort Belvoir, no
later than May 2006, create a Memorandum of Understanding/Agreement
with the Business Systems Modernization-Energy (Fuels Automated System)
Base Level user sites that defines the responsibilities for:

       a. Ensuring a screen-lock function is installed on every workstation
that runs Business Systems Modernization-Energy (Fuels Automated
System).

Management Comments. The DLA CIO nonconcurred and stated that they have
included the appropriate IA operational requirements within the BSM-E (FAS)
Base Level Support Application SSAA in accordance with the provisions of DoD
8510.1-M, paragraph C3.3.5, for Type Accreditation. The SSAA supporting
Type Accreditation eliminates the need for a separate MOU/A between DLA and


                                    19
BSM-E (FAS) Base Level user sites. The provisions within the BSM-E (FAS)
Base Level Support Application SSAA are binding on all organizations where the
application is installed and operated. Military Service organization can opt to
separately accredit the BSM-E (FAS) Base Level Support Application if they
choose not to comply with the Type Accreditation requirements.

Audit Response. The DLA CIO comments were nonresponsive. According to
OMB Memorandum 05-15, agencies must follow NIST standards and guidelines
for non-national security programs and systems. Therefore, according to NIST
SP 800-47, organizations that own and operate connected systems should
establish an MOU/A (or equivalent document) that defines the responsibilities of
both parties in establishing, operating, and securing the interconnection. More
specifically, the MOU/A defines the purpose of the interconnection; identifies
relevant authorities; specifies the responsibilities of both organizations; and
defines the terms of agreement. DLA did not establish MOU/As with the
Services that would allow the BSM-E (FAS) Base Level system to reside and
operate on their local area networks. Additionally, the BSM-E (FAS) Base Level
Support Application Environment Description contained in the SSAA does not
comply with DoD 8510.1-M, paragraph C3.3.3.5. (the paragraph C.3.3.5.
referenced in the DLA response does not exist and may be a typo), which states
that a type accreditation SSAA should define the intended operating environment
as well as any operating procedures required for the type accredited system. The
BSM-E (FAS) Base Level Support Application SSAA does not specifically state
that a screen lock function should be installed on every workstation that runs
BSM-E (FAS). The DoD 8510.1-M states that the program manager, user
representative, and information system security officer should ensure that the
proper security operating procedures, configuration guidance, and training is
delivered with the system. The Information Operations Directorate, Fort Belvoir
(J6F), did not take steps to define proper security operating procedures; did not
provide proper configuration for the BSM-E (FAS); and did not administer
security training to the Base Level users. Further, DoD 8510.1-M requires the
type accreditation SSAA be shipped to each prospective installation site with the
intention of the system SSAA being included in the site SSAA; however, there
was no evidence that the BSM-E (FAS) SSAA was included in the Base Level
site SSAA at any of the visited military sites. We request that DLA provide
additional comments to the report.

      b. Evaluating network settings at Base Level sites to ensure that only
current users have access to Business Systems Modernization-Energy (Fuels
Automated System).

Management Comments. The DLA CIO nonconcurred and stated that they have
included the appropriate IA operational requirements within the BSM-E (FAS)
Base Level Support Application SSAA in accordance with the provisions of DoD
8510.1-M. The SSAA supporting Type Accreditation eliminates the need for a
separate MOU/A between DLA and BSM-E (FAS) Base Level user sites. The
provisions within the BSM-E (FAS) Base Level Support Application SSAA are
binding on all organizations where the application is installed and operated.
Military Service organizations can opt to separately accredit the BSM-E (FAS)
Base Level Support Application if they choose not to comply with the Type
Accreditation requirements.


                                   20
Audit Response. The DLA CIO comments were nonresponsive. See Audit
Response to Recommendation 3.a. above. Additionally, the BSM-E (FAS) Base
Level Support Application SSAA does not define responsibilities for evaluating
network settings at Base Level sites to ensure that only current users have access
to BSM-E (FAS). We request that DLA provide additional comments to the
report.

      c. Creating a formal policy for the removal of inactive accounts after
30 days of inactivity.

Management Comments. The DLA CIO nonconcurred and stated that they have
included the appropriate IA operational requirements (to include account control)
within the BSM-E (FAS) Base Level Support Application SSAA in accordance
with the provisions of DoD 8510.1-M. The SSAA supporting Type Accreditation
eliminates the need for a separate MOU/A between DLA and BSM-E (FAS) Base
Level user sites. The provisions within the BSM-E (FAS) Base Level Support
Application SSAA are binding on all organizations where the application is
installed and operated. Military Service organizations can opt to separately
accredit the BSM-E (FAS) Base Level Support Application if they choose not to
comply with the Type Accreditation requirements.

Audit Response. The DLA CIO comments were nonresponsive. See Audit
Response to Recommendation 3.a. above. Additionally, the BSM-E (FAS) Base
Level Support Application SSAA does not contain a policy for the removal of
inactive accounts after 30 days of inactivity. We request that DLA provide
additional comments to the report.

       d. Requiring Base Level users to ensure that Business Systems
Modernization-Energy (Fuels Automated System) software is stored at a
location separate from the operating location and in an appropriate
container.

Management Comments. The DLA CIO nonconcurred and stated that they have
included the appropriate IA operational requirements (to include continuity of
operations) within the BSM-E (FAS) Base Level Support Application SSAA in
accordance with the provisions of DoD 8510.1-M. The SSAA supporting Type
Accreditation eliminates the need for a separate MOU/A between DLA and
BSM-E (FAS) Base Level user sites. The provisions within the BSM-E (FAS)
Base Level Support Application SSAA are binding on all organizations where the
application is installed and operated. Military Service organization can opt to
separately accredit the BSM-E (FAS) Base Level Support Application if they
choose not to comply with the Type Accreditation requirements.

Audit Response. The DLA CIO comments were nonresponsive. See Audit
Response to Recommendation 3.a. above. Additionally, the BSM-E (FAS) Base
Level Support Application SSAA does not require Base Level users to ensure the
BSM-E (FAS) backup software is stored at a location separate from the operating
location and in an appropriate container. We request that DLA provide additional
comments to the report.




                                    21
       e. Ensuring Business Systems Modernization-Energy (Fuels
Automated System) users are provided annual security awareness training
consistent with the requirements in DoD Directive 8570.1.

Management Comments. The DLA CIO nonconcurred and stated that the
Military Service personnel at BSM-E (FAS) Base Level user sites should have
received security awareness training as a prerequisite to gaining local area
network access, as required by DoDI 8500.2. DLA is responsible for and
includes training on the application security controls as part of its normal BSM-E
(FAS) Base Level Support Application user training.

Audit Response. The DLA CIO comments were nonresponsive. According to
DoD 8510.1-M, for a type accreditation, the DAA should include a statement in
the accreditation memorandum that declares the system is granted a type
accreditation and the operator must assume the responsibility to monitor the
environment for compliance with the environment as described in the
accreditation documentation. DLA did not include a similar statement in the
BSM-E (FAS) Base Level Support Application SSAA. Further, DLA should
ensure that the proper security operating procedures, configuration guidance, and
training is delivered with the system to the Base Level sites, as required by DoD
8510.1-M. DLA did not provide training guidance to the Base Level operating
sites for granting Base Level BSM-E (FAS) users access to the system. We
request that DLA provide additional comments on the report.

       f. Tracking users with significant security responsibilities and ensure
those users are being properly trained consistent with the requirements in
DoD Directive 8570.1.

Management Comments. The DLA CIO nonconcurred and stated that the
Military Service personnel at BSM-E (FAS) Base Level user sites should have
received security awareness training as a prerequisite to gaining local area
network access, as required by DoDI 8500.2. DLA is responsible for and
includes training on the application security controls as part of its normal BSM-E
(FAS) Base Level Support Application user training.

Audit Response. The DLA CIO comments were nonresponsive. According to
DoD 8510.1-M, for a type accreditation, the DAA should include a statement in
the accreditation memorandum that declares the system is granted a type
accreditation and the operator must assume the responsibility to monitor the
environment for compliance with the environment as described in the
accreditation documentation. DLA did not include a similar statement in the
BSM-E (FAS) Base Level Support Application SSAA. Further, DLA should
ensure that the proper security operating procedures, configuration guidance, and
training is delivered with the system to the Base Level sites, as required by DoD
8510.1-M. DLA did not provide training guidance to the Base Level operating
sites for granting Base Level BSM-E (FAS) users access to the system. We
request that DLA provide additional comments on the report.

       g. Ensuring backup and recovery procedures exist and are being
followed at the Business Systems Modernization-Energy (Fuels Automated
System) Base Level.


                                    22
Management Comments. The DLA CIO nonconcurred and stated that they have
included the appropriate IA operational requirements (to include continuity of
operations) within the BSM-E (FAS) Base Level Support Application SSAA in
accordance with the provisions of DoD 8510.1-M. The SSAA supporting Type
Accreditation eliminates the need for a separate MOU/A between DLA and
BSM-E (FAS) Base Level user sites. The provisions within the BSM-E (FAS)
Base Level Support Application SSAA are binding on all organizations where the
application is installed and operated. Military Service organization can opt to
separately accredit the BSM-E (FAS) Base Level Support Application if they
choose not to comply with the Type Accreditation requirements.

Audit Response. The DLA CIO comments were nonresponsive. See Audit
Response to Recommendation 3.a. above. Additionally, the BSM-E (FAS) Base
Level Support Application SSAA does not require BSM-E (FAS) Base Level
users to ensure backup and recovery procedures exist and are being followed at
the BSM-E (FAS) Base Level operating sites. We request that DLA provide
additional comments to the report.




                                   23
Appendix A. Scope and Methodology
   We searched the DoD Information Technology Registry in March 2005 for DLA
   information systems designated as Mission Critical and MAC I or II. We selected
   the BSM-E (FAS), a Mission Critical, MAC II system, for review.

   We assessed the information security operational controls for the BSM-E (FAS).
   We visited and interviewed personnel at the DLA Headquarters, Fort Belvoir,
   Virginia; Charleston Air Force Base, Charleston, South Carolina; Beaufort
   Marine Corps Air Station, Beaufort, South Carolina; Fort Hood Army Base,
   Killeen, Texas; the Defense Supply Center Richmond, Richmond, Virginia; and
   the Washington Navy Yard, Washington, D.C. Throughout the site visits and
   interviews, we evaluated the certification and accreditation for BSM-E (FAS), the
   system security plan, risk assessment, user access, security awareness and
   training, and continuity of operations and disaster recovery of BSM-E (FAS).

   We reviewed Federal laws, OMB guidance, NIST guidance, and DoD Directives,
   Instructions, and Memoranda. We also reviewed the BSM-E (FAS) SSAA dated
   April 27, 2005; the BSM-E (FAS) COOP dated October 2004; the DESC Interim
   Procedures for Retention and Backup of Base Level Fuels Data, dated
   September 12, 2005; the DESC Interim Procedures for Requesting Access to
   DESC Automated Information System Applications, dated July 1, 2005; and the
   DLA One Book Chapters discussing IT COOP Planning; IA Rules of Behavior
   Process; IA Operational Controls; and IA Management Controls.

   We performed this audit from April 2005 through January 2006 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Protecting the Federal Government’s Information-
   Sharing Mechanisms and the Nation’s Critical Infrastructures high-risk area.




                                       24
Appendix B. Prior Coverage
      During the last five years, the DoD IG and Government Accountability Office
      have issued eight reports related to information security operational controls
      within the DoD and DLA. Unrestricted Government Accountability Office
      reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
      DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-06-31, “Information Security: The Defense Logistics
      Agency Needs to Fully Implement Its Security Program,” October 7, 2005

DoD IG
      DoD IG Report No. D-2006-042, “Security Status for Systems Reported in DoD
      Information Technology Databases,” December 20, 2005

      DoD IG Report No. D-2005-110, “Summary of Information Security Weaknesses
      Reported by Major Oversight Organizations from August 1, 2004, through
      July 31, 2005,” September 23, 2005

      DoD IG Report No. D-2005-099, “Status of Selected DoD Policies on
      Information Technology Governance,” August 19, 2005

      DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
      Certification and Accreditation Process,” July 21, 2005

      DoD IG Report No. D-2005-054, “Audit of the DoD Information Technology
      Security Certification and Accreditation Process,” April 28, 2005
      DoD IG Report No. D-2005-029, “Management of Information Technology
      Resources Within DoD,” January 27, 2005

      DoD IG Report No. D-2005-025, “DoD FY 2004 Implementation of the Federal
      Information Security Management Act for Information Technology Training and
      Awareness,” December 17, 2004




                                          25
Appendix C. Criteria

Federal Guidance
    Public Law 100-235, “Computer Security Act of 1987.” This law requires
    each Federal Agency to identify each computer system that contains sensitive
    information. In addition, the law requires agencies to develop a security plan for
    each computer system. Each Federal agency shall provide for the mandatory
    periodic training in computer security awareness and accepted computer security
    practice of all employees who are involved with each Federal computer system of
    that agency.

    OMB Circular No. A-130, Appendix III, “Security of Federal Automated
    Information Resources,” November 2000. Appendix III of OMB
    Circular A-130 states that agencies shall implement and maintain an automated
    information security program to assure that adequate security is provided for all
    agency information collected, processed, transmitted, stored, or disseminated in
    general support systems and major applications. The information security
    program helps to ensure controls were adequate, properly implemented, and
    applied consistently across the entity and information security responsibilities
    were clearly understood.

    NIST Guidance. FISMA amends section 20 of the NIST Act (15 United States
    Code 278g-3) and, among other things, requires NIST to have the mission of
    providing adequate information security for all agency operations and assets;
    however, such standards and guidelines shall not apply to national security
    systems. The standards and guidelines include, at a minimum, standards for
    categorizing agency information and information systems and minimum
    information security requirements for information and information systems in
    each area.

            NIST 800-26. NIST Special Publication 800-26, “Security Self-
    Assessment Guide for IT Systems,” November 2001, builds on the Federal IT
    Security Assessment Framework developed by NIST for the Federal Chief
    Information Officer (CIO) Council. The Framework establishes a standardized
    measurement of security status and criteria that agencies could use to determine if
    security measures were adequately implemented. Additionally, NIST Special
    Publication 800-26 provides guidance on applying the Framework by identifying
    several control areas, such as those pertaining to system security plans, access
    controls, and contingency planning.

           NIST 800-34. NIST Special Publication 800-34, “Contingency Planning
    Guide for Information Technology Systems,” June 2002, provides instructions,
    recommendations, and considerations for government IT contingency planning.
    According to this guide, contingency planning involves establishing thorough
    plans and procedures to enable a system to be recovered quickly and effectively
    following a service disruption or disaster. Contingency planning generally
    includes restoring IT operations at an alternate location; or recovering IT


                                        26
    operations using alternate equipment; or performing some or all of the affected
    business processes using non-IT (manual) means. A COOP involves restoring an
    organization’s essential elements at an alternate site and performing those
    functions for up to 30 days before returning to normal operations. The IT
    Contingency Planning Process contains seven steps: develop the contingency
    planning policy statement; conduct the business impact analysis; identify
    preventative controls; develop recovery strategies; develop an IT contingency
    plan; plan testing, training, and exercises; and plan maintenance.

            NIST 800-47. NIST Special Publication 800-47, “Security Guide for
    Interconnecting Information Technology Systems,” August 2002, provides a
    “life-cycle management” approach for interconnecting IT systems, with an
    emphasis on security. The approach includes four phases: planning, establishing,
    maintaining, and disconnecting the interconnection. The document describes
    various benefits of interconnecting IT systems, identifies the basic components of
    an interconnection, identifies methods and levels of interconnectivity, and
    discusses potential security risks associated with an interconnection. The
    document also contains guides and samples for developing an Interconnection
    Security Agreement, MOU/A and a System Implementation Plan. The MOU/A
    defines the purpose of the interconnection, identifies relevant authorities,
    specifies responsibilities of both organizations, and defines the terms of
    agreement.

            NIST 800-53. NIST Special Publication 800-53, “Recommended
    Security Controls for Federal Information Systems,” February 2005, provides
    guidelines for selecting and specifying security controls for information systems
    supporting the executive agencies of the federal government and is intended to
    provide guidance until the publication of Federal Information Processing
    Standards 200, “Minimum Security Controls for Federal Information Systems,” in
    December 2005. The minimum assurance requirements for these security
    controls are grouped by a security control baseline; low, moderate, and high. In
    addition, this document contains a security control catalog which outlines the
    controls, supplemental guidance, and control enhancements for families of
    security controls. The families of security controls which are covered include:
    access controls; awareness and training; certification, accreditation, and security
    assessments; configuration management; contingency planning; identification and
    authentication; incident response; physical and environmental protection;
    planning; personnel security; risk assessment; system and communications
    protection.


DoD Guidance
    DoD Instruction 5200.40, “DoD IT and Security Certification and
    Accreditation Process, December 30, 1997. This instruction implements policy,
    assigns responsibilities, and prescribes procedures under DoD Directive 5200.28,
    “Security Requirements for Automated Information Systems,” March 21, 1988,
    for C&A of IT, including automated information systems, networks, and sites in
    the DoD. It also creates DoD 8510.1, "DoD IT and Security Certification and
    Accreditation Process Application Manual," July 2000, for security C&A of


                                        27
unclassified and classified IT as well as stresses the importance of a life-cycle
management approach to the C&A and reaccreditation of DoD IT.

DoD 8510.1-Manual, “DoD IT and Security Certification and Accreditation
Process Application Manual,” July 31, 2000. This manual is issued under the
authority of DoD Instruction 5200.40, “DoD IT and Security Certification and
Accreditation Process,” December 30, 1997. The DoD IT and Security
Certification and Accreditation Process establishes a standard process, set of
activities, general tasks, and a management structure to certify and accredit
information systems that will maintain the information assurance and security
posture of the Defense Information Infrastructure. This manual provides
implementation guidance to standardize the certification and accreditation process
throughout DoD and is mandatory for use by all DoD Components. It breaks the
process into 4 phases. Phases 2, 3, and 4 are related to security and contingency
plans.

DoD Directive 8500.1, “Information Assurance (IA),” October 24, 2002. This
directive establishes policy and assigns responsibilities to achieve DoD IA. This
directive requires all DoD information systems to maintain an appropriate level of
confidentiality, integrity, authentication, non-repudiation and availability. DoD
Directive 8500.1 requires adequate training of all personnel authorized access to
DoD information systems and states that the minimum requirement for DoD
information access should be a properly administered and protected individual
identifier and password.

DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003. This Instruction implements policies and procedures and
assigns responsibilities for applying integrated, layered protection for DoD
information systems and networks. DoD Instruction 8500.2 requires that all DoD
information systems operate effectively and provide appropriate confidentiality,
integrity, and availability. The Component Head should also ensure that IA
awareness, training, education, and professionalization are provided to all military
and civilian personnel, including contractors, commensurate with their respective
responsibilities for developing, using, operating, administering, maintaining, and
retiring DoD information systems. The Assistant Secretary of Defense for
Command, Control, Communications, and Intelligence, as the DoD CIO, shall
establish a DoD core curriculum for IA training and awareness and provide
oversight of DoD IA education, training, and awareness activities.

DoD Instruction 8500.2 requires the use of an individual identifier and password
to gain access to a DoD information system. Registration to receive a user ID and
password includes authorization by a supervisor and is done in person before a
designated registration authority. Also required as part of MAC II system
controls for integrity and availability, is a set of rules that describe the IA
operations of the DoD information system and clearly delineate IA
responsibilities and expected behavior of all personnel, including the
consequences of inconsistent behavior or non-compliance. A workstation screen-
lock functionality should also be implemented at each workstation as part of these
controls.




                                     28
    DoD Directive 8570.1, “Information Assurance (IA) Training, Certification,
    and Workforce Management,” August 15, 2004. This directive establishes
    policy and assigns responsibilities in accordance with IA in the DoD. DoD
    Directive 8570.1 requires that all employees with IA responsibilities be identified,
    tracked, and managed so that trained individuals are working at each function
    level. All authorized users of DoD Information Systems shall receive initial IA
    awareness orientation as a condition of access and thereafter must complete
    annual IA refresher awareness. Privileged users and IA managers shall be fully
    qualified, trained, and certified to DoD baseline requirements to perform their IA
    duties.

    DoD Directive 3020.26, “Defense Continuity Program,” September 8, 2004.
    This directive establishes the Defense Continuity Program, revises continuity
    policies, and assigns responsibilities to high-ranking officials for developing and
    maintaining the Defense Continuity Program. According to this Directive, the
    DoD shall have a comprehensive and effective Defense Continuity Program that
    ensures DoD Component mission essential functions continue under all
    circumstances. Also, the performance of mission essential functions in a
    continuity threat or event shall be the basis for continuity planning, preparation,
    and execution. This directive orders the Head of the DoD Components to
    develop, coordinate, and maintain continuity plans and to update and reissue
    plans every two years. Also, the Head of the DoD Components should test and
    exercise continuity plans at least annually, or otherwise as directed; identify
    relocation sites or platforms for use during continuity threats or events; and
    provide for the identification, storage, protection, and availability for use at
    relocation sites, the vital records, materiel, and databases required to execute
    mission essential functions.


DLA Guidance
    DLA Directive 5025.30, The DLA One Book. The DLA One Book Chapters
    were developed as a knowledge sharing single authorized repository for agency
    policies, processes, and procedures. The intent of the IA Operational Controls
    and IA Management Controls chapters of the DLA One Book is to establish the
    IA policy, requirements, and processes to implement, manage, and sustain an
    effective DLA IA Program. The DLA IT COOP Planning Chapter requires each
    DLA J6 Field Site to: perform IT COOP planning, minimize risk of losing
    processing capability, and ensure they have the ability to recover following loss
    of operational capability. In addition, it is DLA policy that all persons requiring
    access to DLA IT systems read, understand, and formally acknowledge the DLA
    IA Rules of Behavior prior to being granted initial IT system access or prior to a
    change in IT system access privileges.

    DLA Interim Procedures. The DESC Interim Procedures for Retention and
    Backup of Base Level Fuels Data provides data backup procedures, general
    procedures for archiving and restoring data files, and conforming electronic data
    storage and retention procedures to Federal and DoD policy guidelines and
    National Archive Standards. Additionally, the Interim Procedures for Requesting
    Access to DESC Automated Information System Applications provide instruction


                                         29
to personnel requiring access to any DESC Automated Information System
Application by submitting a requirement for system access.




                                 30
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Business Transformation)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Under Secretary of Defense (Financial Management)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
  Information Officer
Chief Information Officer, Office of the Secretary of Defense

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force




                                          31
Unified Commands
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Director, Defense Logistics Agency
Chief Information Officer, American Forces Information Service
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Finance and Accounting Agency
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Department of Defense Inspector General
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        33
Defense Logistics Agency Comments




                     35
36
37
38
39
40
41
42
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Sarah A. Davis
Christopher M. Scrabis
Zachary M. Williams
